[

©0
Nq.

FILED
MV/ 0 ) 2021

11 Er fjf ^

lib 6

/ ••

S

:

In The

Supreme Court of the United States
Ramon D. Johnson, II,
Petitioner
v.
Novartis Pharmaceuticals Corporation,'
Taro Pharmaceuticals USA, Incorporated;
Bausch Health US, L.L.C.;
Sun Pharmaceutical Industries, Incorporated;
Torrent Pharma, Incorporated,
Respondents

On Petition for Writ of Certiorari to the
United States Court of Appeals for the Fifth Circuit

PETITION FOR WRIT OF CERTIORARI

Ramon D. Johnson, II
Pro Se
9502 Vallecito Pass
San Antonio, TX 78250
(734) 320-8834
rdougjohnsonii@gmail.com

RECEIVED
MAY -7 2021
MW

QUESTIONS PRESENTED FOR REVIEW
In Pliva, Inc. v. Mensing 564 U.S. 604 (2011)
the only question before this Court was whether a
state law duty for a generic drug manufacturer to
provide a safer label was preempted by a federal
duty for that generic drug manufacturer to ensure its
label was the same as the label for the brand name.
This Court held that the state law duty to provide a
safer label was preempted by the federal duty of
“sameness” for generic drug manufacturers. As part
of this decision this Court stated the different duties
of brand name and generic drug manufacturers as:
A brand name manufacturer seeking new
drug approval is responsible for the accuracy
and adequacy of its label. A manufacturer
seeking generic drug approval, on the other
hand, is responsible for ensuring that its
warning label is the same as the brand
name's. Mensing at 516 (citations omitted).
The finding in Mensing, along with its description of
the manufacturers’ duties, lead naturally to the first
two of the five questions that are at issue in the
instant case:
(1)
Whether a brand name drug manufacturer
who designed the label that is distributed as part of a
generic drug product can be held liable when it is
that label that is the defective part of the product
that caused the injury.

(2)
Whether a generic drug manufacturer can be
held liable for state law claims that are not based on
a duty to provide a safer label, but are instead based
on other state law duties or the condition of the
product as distributed, (e.g. In Texas, a strict liability
marketing defect claim merely looks at the product
itself and determines if it is defective.)
(3)
Whether the relevant information rebuttal to
the Texas presumption of no liability for a drug
manufacturer with an FDA approved label is
preempted, and whether if it is preempted does that
render the presumption of no liability also preempted
or unconstitutional.
(4)
Whether Petitioner alleged facts supporting
the unapproved indication rebuttal to the Texas
presumption of no liability for a drug manufacturer
with an FDA approved label, and whether the
District Court was derelict in it duties or abused its
discretion in deciding Petitioner had not.
(5)
Whether the District Court abused its
discretion in not granting Petitioner leave to amend
his complaint when the amended complaint was
submitted in accordance with instruction provided on
the District Court’s own website and with prevailing
precedents.

n

PARTIES TO THE PROCEEDINGS
AND RELATED CASES
All parties to the proceedings are as listed on the
cover. The related cases are:
•

Ramon D. Johnson, II v. Novartis
Pharmaceutical Corp. et al, No. 5:i9-cv01087OLG, U.S. District Court for the Western
District of Texas - San Antonio Division.
Judgement entered May 7, 2020.

•

Ramon D. Johnson, II v. Novartis
Pharmaceutical Corp. et al, No. 20-50462, U.S.
Court of Appeals for the Fifth Circuit.
Judgement entered Feb. 5, 2021.

in

TABLE OF CONTENTS
Page No.
Questions Presented for Review...............................

i

Parties to the Proceedings and Related Cases...... in
Table of Contents.........................................................

IV

Table of Authorities...................................................... vi
Petition for Writ of Certiorari...................................

1

Opinions Below.............................................................

1

Jurisdiction........................................................... ........

1

Provisions Involved ....................................................

1

Statement of the Case.................................................

2

Reasons for Granting the Writ..................................

8

I.

Public Safety......................................................

8

II.

Brand Name Manufacturer Liability for Its
Label Information.............................................

9

A.

Supervisory Powers of the Court......

9

B.

Matter of First Impression with
Differing Opinions ..............................

13

III.

Generic Manufacturer Liability..................... 15
A.

Supervisory Powers of the Court........15
1.

Strict Liability Marketing Defect.... 18

2.

Breach of Warranty .............

20

3.

Fraudulent and/or Negligent
Misrepresentation.................

21

4.

Negligence Claims & Duty of Care ..23

IV

B.
IV.

V.

Relevant Information Rebuttal to the Texas
Presumption of No Liability........................... 25
A.

Supervisory Powers of the Court........25

B.

Question of Federal Preemption with
Differing Opinions ................................ 29

C.

§ 82.007 is Either Fully Preempted or
Unconstitutional .................................... 29

Unapproved Indication Rebuttal to the Texas
Presumption of No Liability...................
31
A.

VI.

Matter of First Impression Involving
Federal Preemption ............................. 24

Supervisory Powers of the Court........31

Leave to Amend........................................
A.

35

Supervisory Powers of the Court........35

Conclusion

37

Appendix...

la

Court of Appeals Decision....

la

District Court Decision........

12a

Texts of Provisions Involved

25a

v

TABLE OF AUTHORITIES
Cases
American Tabacco Co., Inc. v. Grinnell, 951 S.W.2d
420, 426 (Tex. 1997)....
10,12
Barbour v. City ofForney

36

Buckman Co. v. Plaintiffs' Legal Comm., 531 U.S.
341, 121 S.Ct. 1012, 148 L.Ed.2d 854 (2001) ..27*29
Conte v. Wyeth, Inc., 168 Cal.App.4th 89, 94*95 (Cal.
Ct. App. 2008)
15
Crocker v. Winthrop Lab., Div. ofSterling Drug, Inc.
514 S.W.2d 429, 431 (Tex. 1974)........................ 21
DiamlerChrysler Corp. v. Hillhouse, 161 S.W.3d
541,547 (Tex. App. - San Antonio 2004, pet.
granted, judgement vacated w.r.m.)
10,18,20
Desiano v. Warner-Lambert & Co., 467 F.3d 85 (2d
Cir.2006), affd by an equally divided court sub
nom. Warner-Lambert Co., LLC v. Kent, 552 U.S.
440, 128 S.Ct. 1168, 170 L.Ed.2d 51 (2008) ....28,29
Dussouy v. Gulf Coast Inv. Corp., 660 F.2d 594, 598
(5th Cir. 1981)......................................................... 36
Eckhardt v. Qualitest Pharmaceuticals, Inc., 751
F.3d 674 (5th Cir. 2014)
11,13,18,24
Ford Motor Company v. Mathis, 322 F.2d 267, 273*
274 (5th Cir. [Tex] 1963)....................................... 17
Fullington v. Pfizer, Inc. 720 F.3d 739, 748 (8th
Cir.2013) (Murphy, J., concurring).....................

14

Garcia v. Wyeth-Ayerst Labs., 385 F.3d 961 (6th
Cir.2004)...................................................................

28

vi

Gonzales v. Caterpillar Tractor Co., 571 S.W.2d 867,
871 (Tex. 1978)........................................................... 19
Kellogg v. Wyeth, 762 F. Supp. 2d 694 (D. Vt. 2010)
14
Lashley v. Pfizer, Inc., 750 F.3d 470, 472 (5th Cir.
2014).......................................................... 11,13,16,24
Lofton v. McNeil Consumer & Specialty
Pharmaceuticals, 672 F.3d 372 (2012)

25-29,31

Martin’s HerendImports, Inc. v. Diamond & Gem
Trading United States of Am. Co., 195 F.3d 765,
770 (5th Cir. 1999).................................................... 36
Massey v. Novartis Pharmaceuticals Corporation, 46
F. Supp. 3d 688 (W.D. Tex. 2014)
16,21
MCI Sales & Serv., Inc. v. Hinton, 329 S.W.3d 475,
500-01 (Tex. 2010).................................................... 29
Mutual Pharmaceutical Co., Inc. v. Bartlett 570 U.S.
472 (2013)
13,15,18,24,25
Pliva, Inc. v. Mensing564 U.S. 604
(2011)
i,11,13-16,18,24,25
Polaris Industries v. McDonald, 119S.W.3d 331, 336
(Tex. App. — Tyler 2003 no pet.)
21
Rafferty v. Merck & Co., Inc. 479 Mass. 141 (2018) 14
Rosenzweig v. Azurix Corp., 332 F.3d 854,863 (5th
Cir. 2003)..................................................................... 35
Sears, Roebuck& Co. v. Black, 708 S.W.2d 925, 928
(Tex. App. - Eastland 1986, no writ)..................... 17
Starr v. Koppers Company, 398 S.W.2d 827, 830-831
(Tex. Civ. App. - San Antonio 1965, writ refd
n.r.e.)
23

Vll

Strayhorn v. Wyeth Pharmaceuticals, Inc. 737 F.3d
378 (2013) (Stranch, J. concurring in part and
dissenting in part)...................................................... 14
T.H. v. Novartis Pharmaceuticals Corp., 4 Cal. 5th
145 (2017).................................................................... 14
Texas Workers’ Compensation Com’n. v. Garcia, 893
S.W.2d 504, 520 (Tex. 1995).................................... 31
Timpte Indus., Inc. v. Gish, 286 S.W.3d 306, 311
(Tex. 2009)................................................................... 18
Trinity River Authority v. URS Consultants, Inc.,
889 S.W.2d 259, 261 (Tex. 1994)............................ 31
Wyeth v. Levine, 555 U.S. 555, 129 S.Ct. 1187, 173
L.Ed.2d 51 (2009).........................................
27,29
Wyeth, Inc. v. Weeks, 159 So. 3d 649 (2014)

14

Statutes
Mich. Comp. Laws § 600.2946(5)(a)........

28

Tex. Civ. Prac. Rem. Code § 82.001(4)....

12

Tex. Civ. Prac. Rem. Code § 82.007........

28,30,31

Tex. Civ. Prac. Rem. Code § 82.007(a)....

25,29,30

Tex. Civ. Prac. Rem. Code § 82.007(b)....

25

Tex. Civ. Prac. Rem. Code § 82.007(b)(1)

25-30

Tex. Civ. Prac. Rem. Code § 82.007(b)(3) ..31-33,35,36
Tex. Gov't Code § 311.023

30

21 CFR 201.1.....................

12

28 U.S.C. §1254(1)............

1

28U.S.C. §1332 ................

7

vm

28 U.S.C. §2403(b)

1

Other
Amendment I to the Constitution of the United
States....................................................

30

Hatch'Waxman Amendments..............

13,15

Restatement (Second) of Torts § 399...

17

Restatement (Second) of Torts § 400...

17

Restatement (Second) of Torts § 402B

22

Tex. Const. Art. I, §13 ..

30

Texas Litigation Guide.

17,19,21,26

IX

PETITION FOR WRIT OF CERTIORARI
Petitioner Ramon D. Johnson, II respectfully
seeks a writ of certiorari to review the judgment of
the United States Court of Appeals for the Fifth
Circuit in this case.
OPINIONS BELOW
The Order of the U.S. District Court for the
Western District of Texas — San Antonio Division in
this matter, Civil Action No. 5D9-cv-01087-OLG, is
unpublished. It is reprinted in the Appendix.
The Opinion of the U.S. Court of Appeals for
the Fifth Circuit in this matter, No. 20-50462, is
unpublished and not to be used as precedent, per the
Court. It is reprinted in the Appendix.
JURISDICTION
The U.S. Court of Appeals for the Fifth Circuit
entered its Opinion on February 5, 2021. This Court
has jurisdiction under 28 U.S.C. § 1254(l). As the
constitutionality of a statute of the State of Texas is
in question, 28 U.S.C. § 2403(b) may apply and this
document will contemporaneously be served on the
Attorney General of the State of Texas.
PROVISIONS INVOLVED
The pertinent constitutional, statutory, and
regulatory provisions involved in the case are:
•

Amendment I of the Constitution of the United
States of America
1

•
•

Mich. Comp. Laws § 600.2946(5)(a)
Tex. Civ. Prac. Rem. Code § 82.001(4)

•
•

Tex. Civ. Prac. Rem. Code § 82.007
Tex. Const. Act. I, § 13

•

Tex. Gov’t Code § 311.023

The full texts of the applicable provisions are printed
in the Appendix.
STATEMENT OF THE CASE
Petitioner (Plaintiff) alleges Respondents
(Defendants) are liable for personal injuries he
suffered due to marketing defects in their products.
The Respondents products either caused or worsened
Petitioner’s Peyronie’s Disease (PD),
PD causes
plaques of scar tissue to form in the penis and has
resulted
m
severe
bending,
narrowing
(bottlenecking), shortening, and erectile dysfunction
for the Plaintiff.
In addition to deformity and
dysfunction, PD has caused physical pain and
emotional pain in the form of anxiety, depression,
and loss of an intimate relationship with his wife,
which has severely stressed their relationship.
Petitioner was prescribed Minocycline (brand
name Minocin) on or about April 19, 2013 by
dermatologist Dr. Jeffrey Meffert for acne keloidalis,
hidradenitis, folliculitis, and cellulitis and abscess of
trunk. The Minocycline product Petitioner received
and used from his local pharmacy was from Ranbaxy
Laboratories Limited (Ranbaxy), with label designed
by Bausch Health US, L.L.C. (Bausch) for its brand
name drug Minocin. Ranbaxy was acquired by Sun
Pharmaceutical Industries, Incorporated (Sun), but
as part of that acquisition was required to spin off
2

the Ranbaxy Minocycline- to Torrent Pharma,
Incorporated (Torrent). Patient information from the
label was distributed to Petitioner with the capsules
and Petitioner read the information.
On or about April 20, 2014 Petitioner noticed
nodules in his penis. Petitioner had a previously
scheduled appointment with Dr. Meffert on April 22,
2014. Petitioner told him about the nodules and Dr.
Meffert referred him to urology. Petitioner saw
urologist Dr. Ian Thompson, III on June 5, 2014 and
July 17, 2014. Dr. Thompson suspected PD and
initially took a “wait and see” approach. The disease
progressed so Dr. Thompson referred Petitioner to
another urologist that specialized in PD, urologist
Dr. LeRoy Jones. Petitioner first saw Dr. Jones on
August 29, 2014. Dr. Jones prescribed a medication
and some supplements, but the disease continued to
progress.
Because it had been less effective, Petitioner
stopped the Minocycline in late October, 2014. The
pain Petitioner had developed in his penis went away
quickly. Thinking it was just coincidental, Petitioner
decided to continue the Minocycline until he
returned to Dr. Meffert to discuss his dermatological
issues.
Shortly after restarting the medication,
Petitioner’s pain returned.
He stopped the
Minocycline immediately and his pain quickly went
away again.
Petitioner conducted his own research and
initially found no connection between Minocycline
and PD.
Petitioner did, however, confirm a
connection between Minocycline and drug induced
lupus, a different connective tissue disorder.
Petitioner saw Dr. Jones on October 30, 2014
and saw Dr. Meffert on November 12, 2014.
3

Petitioner told both about what happened when he
stopped the Minocycline, about Minocycline causing
another connective tissue disease, and that he
thought it had caused his PD. Dr. Jones, the PD
specialist, told Plaintiff unequivocally that drugs
don’t cause PD. Dr. Meffert, a dermatologist who
regularly prescribes Minocycline, told Petitioner that
PD is not a listed side effect of a Minocycline.
With two doctors telling Petitioner that
Minocycline doesn’t cause PD and Petitioner’s own
research, before and after seeing his doctors, not
yielding any connection between Minocycline and
PD, he left it alone at that point. Plaintiff continued
to see Dr. Jones and tried some noninvasive
treatments to no avail. Plaintiff felt other treatment
options posed too much risk.
On or about June 15, 2017 Petitioner was
prescribed Carbamazepine (brand name Tegretol) by
nurse practitioner Lydia Trejo of pain management
physician Dr. Shaun Jackson’s office,
This
prescription was recommended by neurologist Dr.
Rebecca Romero for the treatment of severe small
fiber neuropathy,
However, Dr. Jackson later
indicated he would prefer the prescription come from
Dr. Romero since it was for a condition she was
treating. On August 24, 2017 Dr. Romero took over
the prescription.
The Carbamazepine product
Petitioner received and used from his local pharmacy
was from Taro Pharmaceuticals USA, Incorporated
(Taro), with the label designed by Novartis
Pharmaceuticals Corporation (Novartis) for its brand
name drug Tegretol. Patient information from the
label was distributed to Petitioner with the tablets
and Petitioner read the information.

4

On or about September 10, 2017 Petitioner
developed pain in his penis and observed new PD
symptoms. There were new indentations along the
side, narrowing at the head, more dramatic
bottlenecking and bending, and more difficulty
getting and maintaining an erection. On or about
September
11,
2017
Petitioner
researched
Carbamazepine and found that it has been known to
cause drug induced lupus just like Minocycline, but
he did not find any connection to PD.
On September 11, 2017 Petitioner also notified
Dr. Romero through MyChart what was happening
and that it seemed that the Carbamazepine had
reactivated his PD. Dr. Romero replied that to her
knowledge this is not a common reaction to
Carbamazepine and referred Petitioner to his
urologist.
• On September 12, 2017 Petitioner saw
rheumatologist Dr. Jose Roldan. Since Petitioner’s
research on September 11, 2017 indicated that there
was a correlation between high levels of TGF-beta
and PD, he asked Dr. Roldan to order a TGF-beta
blood test.
On September 13, 2017 Petitioner saw
urologist Dr. Jones again. He told Dr. Jones that he
had returned because Carbamazepine had caused a
reactivation of his PD. Petitioner recounted what
happened with the Minocycline and told him about
both drugs being on a list of medications that can
cause drug induced lupus.
Dr. Jones, again,
unequivocally stated that drugs don’t cause PD.
On or about September 13, 2017 Petitioner
stopped the Carbamazepine and the PD pain he was
having quickly went away. He did not retry this
drug. Petitioner took the TGF-beta test ordered by
5

Dr. Roldan on or about September 14, 2017 and it
came back high. On or about December 8, 2017
Petitioner had the TGF-beta test redone and the
results were normal now off the Carbamazepine.
On August 19, 2019, while researching
alternate methods of treatment, Petitioner happens
upon an article dated 1989 that links Carbamazepine
to PD and other auto-immune disorders. Petitioner
also finds articles that show both Minocycline and
Carbamazepine can increase TGF-beta levels and
that injections of TGF-beta are used to induce PD in
laboratory animals. Additionally, Petitioner finds
that Minocycline can cause other forms of fibrosis!
PD is considered penile fibrosis. Lastly, Petitioner
for the first time finds websites that say medications
can cause PD — a couple of sources even mention
anti-seizure
drugs
specifically,
of
which
Carbamazepine is one. This new evidence now
refutes his doctors’ statements that drugs don’t cause
PD. Only at this point does Petitioner have enough
evidence to substantiate that both products caused
his PD. He now knows that he has been injured by
the Respondents.
Neither Minocycline nor Carbamazepine had
Peyronie’s Disease, “penis disorder,” or “penile size
reduced” listed as a side effect on the label or in the
patient information that was given with the
prescription. There were previous reports of “penis
disorder” for both drugs, and previous reports of
“penile size reduced” for Carbamazepine. Prior to
filing suit, Petitioner notified all Defendants of the
side effects he experienced and that he had claims
against them.
Petitioner filed his Complaint for a Civil Case
on September 10, 2019 in the U.S. District Court for
6

the Western District of Texas, San Antonio Division.
The basis for jurisdiction was diversity of citizenship
under U.S.C. § 1332, as Petitioner is a citizen of
State of Texas, all events took place in Texas, and
Respondents are all citizens of other states.
Petitioner stated five causes of action: strict liability,
negligent manufacturing, negligent failure to warn/
fraudulent misrepresentation, breach of warranty
(express and/or implied), and loss of consortium.
All Respondents filed Motions to Dismiss.
Petitioner filed a combined response, Respondents
filed replies, and Petitioner filed a sur-reply.
Subsequently, Plaintiff filed a motion for leave
to amend his complaint, with said amendment
attached. Plaintiffs First Amended Complaint for a
Civil Case modified the causes of action to strict
liability, negligent manufacture, negligent failure to
warn, fraudulent and/or negligent misrepresentation,
deceptive trade practices, common law negligence,
and breach of warranty (express and/or implied).
Plaintiff requested his loss of consortium be held by
the Court for his wife should she be added to the
claim once Plaintiff find proper representation. This
motion was opposed by all Defendants.
The District Court issued its Order on May 7,
2020 (App. 12a). The Order granted the Motions to
Dismiss of brand name manufactures Novartis and
Bausch based on the fact that Petitioner did not
ingest pills manufactured by Novartis and Bausch.
The Order also granted the Motions to Dismiss of
generic manufacturers Taro, Sun, and Torrent by
finding that Petitioner’s claims did not rebut Texas
law’s presumption of no liability resulting from an
FDA approved label, and alternatively by finding
that Plaintiff claims are preempted by federal law
7

under Supreme Court and Fifth Circuit precedent.
The Order further granted Plaintiffs Motion for
Leave to File a Combined Rebuttal to Defendants’
Replies in Support of Their Motions to Dismiss, but
denied Petitioner’s Motion for Leave to File a First
Amended Complaint for a Civil Case and to Edit the
Style of the Case as futile and unduly prejudicial to
Defendants.
Petitioner timely filed his Notice of Appeal to
the United States Court of Appeals for the Fifth
Circuit on June 5, 2020. After briefing, but without
oral arguments, the Fifth Circuit affirmed the
decision of the District Court on February 5, 2021
(see App. la). The Court found that Petitioner’s
claims against generic manufacturers Taro, Sun, and
Torrent were preempted by federal law. The Court
further found that brand name manufacturers
Bausch and Novartis owed no duty to Petitioner
since he ingested generic drugs. Based on these two
findings the Court stated it did not reach the issues
surrounding the presumption against liability and,
therefore, did not consider Petitioner’s arguments
regarding rebuttal of the statute, including
Petitioner’s challenges to the validity of the
presumption statute,
No finding was made
regarding the District Court denying Petitioner leave
to amend.
REASONS FOR GRANTING THE WRIT
I. Public Safety
The issues in this case are important to the
landscape of pharmaceutical litigation, not only in
the State of Texas, but throughout the United States
8

as well. The outcome will greatly affect the safety
and the rights of every U.S. citizen who take generic
drugs.
Whether through direct prescription or
pharmacy substitution, generic drugs make up an
overwhelming majority of prescriptions filled.
Nationally, from 2009 to 2019 the population
of the United States grew roughly from 307 million
to 329 million, an increase of 7 percent. During the
same span, however, adverse event reports in the
FDA Adverse Event Reporting System grew roughly
from 490,000 to 2,190,000, an increase of 347
percent. Adverse event reporting grew at a rate
nearly 50 times that of the population. Deaths
reported as an adverse event grew from roughly
9,700 to 55,800, an increase of 475 percent. Deaths
grew at a rate nearly 68 times that of the population
Court rulings at issue in this case have helped
foster an environment of unaccountability for
pharmaceutical companies. Without accountability,
these companies are not complying with state law
duties to discover the dangerous propensities of their
products and to exercise reasonable care to prevent
harm that can reasonably be foreseen. Consumers
are getting hurt in the process. With consumer
safety being paramount, this Court should grant writ
of certiorari and give full consideration to the merits
of this case.
II. Brand Name Manufacturer Liability for Its Label
Information
A. Supervisory
Fifth Circuit has not
precedents involved by
and equitable manner,

Powers of the Court. The
decided this case and the
applying Texas law in a fair
but have instead acted with
9

an end goal to dismiss consumer claims against drug
companies.
This Court should exercise its
supervisory powers to return the Fifth Circuit back
to Texas law and away from its biases.
In Texas there are three categories of defects^
design, manufacturing, and marketing. American
Tabacco Co., Inc. v. Grinnell, 951 S.W.2d 420, 426
(Tex. 1997). Petitioner does not allege a design
defect or a manufacturing defect of the pills.
Instead, we are dealing with a marketing defect, as
the label is the part of each drug product that is
defective. Petitioner has always maintained that it
was the defective labels that caused his PD.
Therefore, the Fifth Circuit’s emphasis on the
ingestion of the pill is misplaced because the defect
does not lie within the pill itself, but within the label.
The pill is simply not defective under Texas law.
The District Court and the Fifth Circuit
erroneously place emphasis on ingestion of the pill
and brand name manufacturers’ “innovator liability”
theory. “Innovator Liability could only relate to the
pill since the label is the direct work product of the
brand name manufacturers.
An element of
Petitioner’s strict liability marketing defect claim
against the brand name Respondents is “A causal
link between the failure to warn or instruct and the
product user’s injury.” DiamlerChrysler Corp. v.
Hillhouse, 161 S.W.3d 541,547 (Tex. App.
San
Antonio 2004, pet. granted, judgement vacated
w.r.m.)
This clearly shows that the causal
relationship that is under review is the link between
the label and the injury, and not between the pill and
the injury. Petitioners other claims against the
brand name manufacturers also focuses on the label.

10

The lower courts used Eckhardt. v. Qualitest
Pharmaceuticals, Inc., 751 F.3d 674 (5th Cir. 2014)
and Lashley v. Pfizer, Inc., 750 F.3d 470, 472 (5th
Cir. 2014) to dismiss the instant case. These two
cases were both submitted to the Fifth Circuit
around the same time, by the same attorney,
improperly as design defect cases in what seems to
be an attempt to get around Mensing. As design
defect cases, each wrongly stated that the ingestion
of the pill caused the Plaintiffs’ injuries. Instead of
recognizing these two cases as marketing defect
cases, the Fifth Circuit honed in on the pill against
Texas law. The instant case is distinguished from
Eckhardt and Lashley in that Petitioner has claimed
that it was the defective label, not ingestion of the
pill, that caused his injuries.
Had Bausch listed PD (or even “penis
disorder,” which had previously been reported) as a
side effect when it designed the label that was part of
the Minocycline product, the medication could have
been stopped once the nodules were first discovered,
not some six months later while allowing full blown
PD to develop. When the nodules were first noticed
there was not yet any deformity, dysfunction, or
pain, and since PD sometimes spontaneously
recovers, Petitioner may have had a full recovery if
the Minocycline had been stopped when the nodules
were first discovered.
Had Bausch included
instructions limiting the length of time the drug is
taken like it does for its other brand name
Minocycline product, Solodyn, Petitioner would have
never even developed the nodules.
Had Novartis listed PD (or even “penile size
reduced” or “penis disorder,” which had previously
been reported) as a side effect when it designed the
11

label that was part of the Carbamazepine product,
the drug would never have been tried due to the
Plaintiffs prior history with Minocycline.
The “but for” in this case as it pertains to the
brand name Respondents is simply: if it was not for
the defective label designs of Bausch and Novartis,
the Mr. Johnson would not have been injured.
Neither Bausch nor Novartis deny that the defective
labels that caused the injuries are their designs.
However, brand name Respondents do say they are
not manufacturers in this case so they can’t be held
liable. Texas law says otherwise.
If under Grinnell above, a marketing defect is
a type of product defect, the marketing must be part
of the product. Both Federal and Texas law require
labels as part of the product. The Federal Food,
Drug, and Cosmetic Act uses the phrase “A drug or
drug product (as defined in 320.1 of this chapter) in
finished package form” 21 CFR 201.1. This finished
package form of the product surely includes the pill,
the container, and the required labeling.
As designers of the labels, Bausch and
Novartis are considered manufacturers in this case.
Under Tex. Civ. Prac. Rem. Code § 82.001(4):
"Manufacturer" means a person who is a designer,
formulator,
constructor,
rebuilder,
fabricator,
producer, compounder, processor, or assembler of any
product or any component part thereof and who
places the product or any component part thereof in
the stream of commerce.
Bausch and Novartis
designed the labels, entered them into the stream of
commerce, and those labels were the defective part of
the drug products that cause Petitioner to develop
PD. Bausch and Novartis are, therefore, liable for
Petitioner’s injuries.
12

Holding on to it bias against the consumer, the
Fifth Circuit inexplicably still uses Eckhardt and
Lashley to dismiss Petitioner’s claims, even when
confronted with the fact that Petitioner has
presented different theories of liability that are
consistent with Texas law. This Court decided to
hear Mutual Pharmaceutical Co., Inc. v. Bartlett 570
U.S. 472 (2013) and applied standards appropriate
for a design defect even though it had previously
decided Mensing under a different theory of liability.
This Court should exercise it supervisory powers and
apply the applicable standards to Petitioner’s claims
where the Fifth Circuit has failed to do so.
B. Matter of First Impression with Differing
Opinions. This Court has not yet decided whether a
brand name drug manufacturer who designed the
label that is distributed as part of a generic drug
product can be held liable when it is that label that is
the defective part of the product that caused the
injury.
Brand name Defendant have known that since
the passage of the Hatch'Waxman Amendments that
generic drug manufacturers are required to use the
labels of the brand name drugs their generic is based
on. It is, therefore, easily foreseeable that defects in
their brand name labels could not only harm the
users of the brand name products, but also users of
the generic products required to use their labels.
They owe a duty of care to anyone who uses the label
information they are responsible for. Mensing at 613
indicates brand name manufacturers are responsible
for the accuracy and adequacy of their labels while
the responsibility of generic manufacturers is

13

sameness. With Mensing in mind other courts have
offered:
Mensing's acceptance of the FDA's “newfound
opinion” created a different landscape in
pharmaceutical litigation. Brand-name drug
manufacturers now stand in direct relationship
with consumers who ingest generic drugs
because only the brand-name manufacturers
can control and change labeling to strengthen
warnings about drug safety. Strayhorn v.
Wyeth Pharmaceuticals, Inc. 737 F.3d 378
(2013) (Stranch, J. concurring in part and
dissenting in part).
The “privileged position accorded to the brand
manufacturers may alter their state law
relationship to the generic drugs whose
composition and labeling they control.”
Fullington v. Pfizer, Inc. 720 F.3d 739, 748 (8th
Cir.2013) (Murphy, J., concurring).
Several state courts of last resort have coupled
the Mensing decision with the foreseeability
argument and allowed for the advancement of
various negligence and misrepresentation claims
against brand name manufacture in cases where
there was only exposure to generic products. Those
cases include T.H. v. Novartis Pharmaceuticals
Corp., 4 Cal. 5th 145 (2017) in California, Rafferty v.
Merck & Co., Inc. 479 Mass. 141 (2018) in
Massachusetts, Kellogg v. Wyeth, 762 F. Supp. 2d
694 (D. Vt. 2010) in Vermont, and Wyeth, Inc. v.
Weeks, 159 So. 3d 649 (2014) in Alabama.

14

Additionally, it should be pointed out that
Petitioner has expressed common law claim against
the brand name manufacturers, and even before
Mensing this was decided:
We hold that the common law duty to use due
care owed by a name-brand prescription drug
manufacturer when providing product warnings
extends not only to consumers of its
own product, but also to those whose doctors
foreseeably
rely
on
the
name-brand
manufacturer's product information
when
prescribing a medication, even if the
prescription is filled with the generic version of
the prescribed drug. Conte v. Wyeth, Inc., 168
Cal.App.4th 89, 94-95 (Cal. Ct. App. 2008)
With the Fifth Circuit and other jurisdictions,
including state courts of last resort, having varying
opinions, it is up to this Court to decide if the
statutory scheme provided by the Hatch-Waxman
Amendments extends a brand name manufactures
duty of care to user of generic drugs that are
required to have their labels as part of the product.
III. Generic Manufacturer Liability
A. Supervisory Powers of the Court. The
Fifth Circuit has engaged in improper judicial
proceedings and this Court should exercise its
supervisory powers. The Fifth Circuit has expanded
the reach of Mensing and Bartlett far beyond the
holdings of this Court. The Fifth Circuit opinion
related to Petitioner’s strict liability marketing
defect goes against the opinion of Texas Supreme
15

Court. The Fifth Circuit failed to properly consider
other state law duties other than the duty to change
the label. And, in order to expediently dispose of
consumer claims, the Fifth Circuit improperly lumps
all the claims together instead of evaluating the
merits of each claim - this includes the dismissal of
Petitioner’s breach of warranty when Fifth Circuit
precedent in Massey v. Novartis Pharmaceuticals
Corporation, 46 F. Supp. 3d 688 (W.D. Tex. 2014)
would have allowed the claim to proceed since
Petitioner in this case had notified Respondents of
his claim.
In its opinion regarding the instant case, the
Fifth Circuit starts off by overstating the holding in
Mensing by saying, “In PLIVA v. Mensing, the
Supreme Court held that state law claims against
generic drug manufacturers that turn on the
adequacy of the drug’s label are preempted. 564 U.S.
604, 618 (2011).”
This is not said at 618, or
anywhere else in Mensing. This greatly expands
what the Fifth Circuit itself had previously said:
“The Court held that federal law preempted state
laws imposing a duty to change a drug's label upon
generic drug manufacturers.” Lashley, footnote 4.
The decision in Mensing hinged on the
impossibility of a generic drug manufacturer’s ability
to unilaterally change its label and still comply with
federal law. Petitioner’s claims against the generic
manufacturers in the instant case are not about their
ability to change the label. Instead, Petitioner is
holding the generic manufacturers responsible for
distributing a defective label as part of their product,
as well as other tort duties for which they failed to
comply.
There is no impossibility with any of

16

Plaintiffs’ claim against the generic manufacturers in
this case.
Additionally, by taking a label designed by
another party, branding that label with their own
names, and distributing it with their pills and
packaging, the generic manufacturers assume the
same liability as if they had designed the label
themselves. What they could do about it becomes
irrelevant. From the Texas Litigation Guide we have
the following:
If the seller of a product manufactured by
another party sells the product knowing that it
is dangerous, or that is likely to be dangerous,
the seller is subject to the same liability as any
other supplier of a dangerous product
[Restatement (Second) of Torts § 399].
A person who sells a product that is
manufactured by another as the seller’s own
product is subject to the same liability as the
manufacturer of the product [Restatement
(Second) of Torts § 400].
Thus, the
manufacturer of an automobile may be held
liable for damages caused by a negligently
component part, although that part is made by
another party and was merely assembled by the
auto manufacturer [Ford Motor Company v.
Mathis, 322 F.2d 267, 273-274 (5th Cir. [Tex]
1963)]. Similarly, a department store was held
liable for a negligently manufactured washing
machine even though the machine was
manufactured by another company because the
department store had put its brand name on the
machine [Sears, Roebuck& Co. v. Black, 708
17

S.W.2d 925, 928 (Tex. App. - Eastland 1986, no
writ)].
The generic manufacturers are liable because they
branded the defective labels with their own names
and they distributed those labels as part of their own
product while they knew or should have known of the
labels defects.
Turning to Bartlett, it is not applicable to the
instant case since, as the District Court pointed out
in its Order (App. 21a), it pertains to “design defect
claims.” What we have in the instant case is a
marketing defect.
While Eckhardt, analyzing
Bartlett, found that a strict liability design defect
claim in Texas was not required to balance the
product’s harms and benefits as in New Hampshire,
it was still preempted because in order to prove a
strict liability design defect claim under Texas law as
alleged here, the plaintiff must prove that “a safer
alternative design existed.” Eckhardt at 679 citing
Timpte Indus., Inc. v. Gish, 286 S.W.3d 306, 311
(Tex. 2009). With the marketing defects in this case,
there is no requirement for a safer alternative
design.
Mensing and Bartlett do not preempt
Plaintiffs claims.
1. Strict Liability Marketing Defect: The only
claim of Petitioner’s that the Fifth Circuit somewhat
examined was his strict liability marketing defect
claim. It did so only by examining the definition of a
marketing defect: “[a] marketing defect occurs when
a defendant knows or should know of a potential risk
of harm presented by the product but markets it
without adequately warning of the danger or
providing instruction for safe use.” Diamler Chrysler
Corp. v. Hillhouse, 161 S.W.3d 541, 546 (Tex. App. 18

San Antonio 2004, pet. granted, judgement vacated
w.r.m.).
The Fifth Circuit somehow mistakes this as a
“law” requiring the Respondents to update their label
when they have knowledge of a risk. It is not. This
definition only looks at Respondents knowledge and
the condition of the product when it was distributed,
asking two simple questions: (l) Did Respondent
know, or should they have known, of the risk? The
answer here is clearly yes. (2) Did Respondents
market the product without warning of the risk?
Again, the answer is yes. With a yes to both
questions, we have a marketing defect.
The Texas Supreme Court agrees with
Petitioner on this issue by stating:
The care taken by the supplier of a product in
its preparation, manufacture, or sale, is not a
consideration in strict liability; this is, however,
the ultimate question in a negligence action.
Strict liability looks at the product itself and
determines if it is defective. Negligence looks at
the act of the manufacturer and determines if it
exercised ordinary care in design and
production. Gonzales v. Caterpillar Tractor Co.,
571 S.W.2d 867, 871 (Tex. 1978).
Negligence looks at the act, and updating the label is
simply an act that strict liability in Texas does not
care about.
Petitioner provided the Fifth Circuit with the
elements of the strict liability marketing defect
claim. It inexplicably refused to evaluate them for
this case. From the Texas Litigation Guide: A
claimant establishes a “marketing defect” by showing
19

all of the following [see DiamlerChrysler Corp. v.
Hillhouse, 161 S.W.3d 541,547 (Tex. App. - San
Antonio 2004, pet. granted, judgement vacated
w.r.m.)]:
1. A risk of harm that is inherent in the
product or that may arise from the product’s
intended or reasonably anticipated use.
2. Actual knowledge or foreseeability of the risk
of harm by the product supplier at the time the
product is marketed.
3. The absence of a warning or instructions
that renders the product unreasonably
dangerous to the product’s ultimate user or
consumer.
4. A causal link between the failure to warn or
instruct and the product user’s injury.
There is no requirement that the Defendants are
able to update the label. There is no requirement for
a “safer alternative design.” There is, thus, no
impossibility. This claim simply looks at the label at
a moment in time to determine if it was defective.
Petitioner demonstrated to the Fifth Circuit during
briefing that each element was met (Appellant’s
Original Brief 40-41). Defendants are liable for the
Plaintiffs injuries.
2. Breach of Warranty: In a dereliction of its
duties, the Fifth Circuit also failed to evaluate the
elements of this claim as well. The elements of a
cause of action for breach of the implied warranty of
merchantability are: (l) the defendant sold or leased

20

a product to the plaintiff; (2) the product was
unmerchantable! (3) the plaintiff notified the
defendant of the breach; and (4) the plaintiff suffered
injury [Polaris Industries v. McDonald, 119 S.W.3d
331, 336 (Tex. App. - Tyler 2003 no pet.)].
Again, Petitioner demonstrated to the Fifth
Circuit during briefing that each of these elements
was met (Appellant’s Original Brief 42). There is no
requirement that the Defendants are able to provide
updated labels. There is also no requirement for a
“safer alternative design.”
There is, thus, no
impossibility. Further, it should be noted that as
stated above in Massey, the Court separated the
warranty claim from the failure to warn claim, and
only dismissed it because the plaintiff had failed to
notify the defendant of the claim prior to filing suit.
Plaintiff did so in this case, so Defendants are liable.
3.
Fraudulent and/or Negligent Misrepre­
sentation- Yet another claim the Fifth Circuit failed
to evaluate on its own merits. From the Texas
Litigation GuideMisrepresentation may be asserted as the basis
for a products liability action [see C.P.R.C. §
82.001(2)]. In some situations, liability may be
imposed on the seller of a product who, by
advertising,
labeling,
or
some
other
communication, makes a misrepresentation to
the public of a material fact about the character
or quality of a product and a consumer suffers
some physical harm from the product by relying
on the misrepresentation [see Crocker v.
Winthrop Lab., Div. of Sterling Drug, Inc., 514
S.W.2d 429, 431 (Tex. 1974)]. This liability will
apply if the consumer justifiably relies on the
21

misrepresentation,
even
though
the
misrepresentation is not made fraudulently or
negligently, and even if the consumer does not
have a contractual relationship with the seller
[Restatement (Second) of Torts § 402B].
Yet again, there is no requirement that the
Defendants are able to provide updated labels. And
there is no requirement for a “safer alternative
design.”
The criteria established here for
misrepresentation only look at the state of the
product as distributed.
The Minocycline label says, “The following
adverse events have been observed in patients
receiving tetracyclines.” However, this label does not
indicate to list “penis disorder” and “erectile
dysfunction,” which both show up in the FDA
Adverse Event Reporting System (FAERS). Plaintiff
relied on this misrepresentation and continued to
using this product causing further damage to his
body. Plaintiff may have had a full recovery had the
known side effects been listed.
The Carbamazepine label says, “The following
additional adverse reactions have been reported.”
However, this label does not indicate “penis disorder”
and “penile size reduced,” which both show up in the
FAERS database.
Plaintiff relied on this
misrepresentation and used this product, causing
more damage to his body.
All criteria for misrepresentations have been
met, so Defendants are liable. It should be noted
here that an analysis of Plaintiffs Deceptive Trade
Practices Act (DTPA) claims would be similar in
nature to this misrepresentation analysis.

22

4. Negligence Claims & Duty of Care: The
Fifth Circuit completely ignored the manufacturers’
duties of care as laid out by the Texas courts and
presented during briefing,
The manufacturers’
duties of care that relate to Plaintiffs negligent
manufacture, negligent failure to warn, and common
law negligence claims are as stated in the Texas
Litigation Guide:
[l] Manufacturers must exercise reasonable
care to prevent physical harm that reasonably
can be foreseen to result from the use of the
product for its intended purpose. [2] They also
must take reasonable care to discover the
dangerous propensities of the product and to
warn persons who might be endangered by it
[see Starr v. Koppers Company, 398 S.W.2d
827, 830-831 (Tex. Civ. App. — San Antonio
1965, writ refd n.r.e.).]
To avoid liability, manufacturers must satisfy both
duties. With respect to [l] above, the question for
the generic manufacturers becomes, “What does
reasonable care to prevent physical harm look like
for a generic manufacturer who was unable to
directly change the label?” The answer is that the
manufacturer would have to provide the information
to the FDA, possibly even filing a citizen’s petition.
Respondents
here
clearly haven’t
exercised
reasonable care to prevent physical harm to the user.
Duty [2] above has two parts. First, the
generic manufacturers would have to exercise
reasonable to identify side effects.
That would
involve doing proper post market evaluations as they
are required to do. Petitioner alleges this has not
23

been done. Second, if a generic manufacturer found
a new side effect, reasonable care to warn its users
would again be to provide the information to the
FDA, possibly even filing a citizen’s petition.
According to the FDA in Mensing (at 616), the
generic manufacturers are required to ask for
assistance in getting the label changed, so the
manufacturer would be satisfying both state and
federal duties. While Mensing (at 624) states “The
only action the Manufacturers could independently
take—asking for the FDA's help—is not a matter of
stateTaw concern,” it is clearly a matter of state-law
concern regarding the Texas duties of care.
It is worth noting here that the generic
manufacturers could even contact the brand name
manufacturers from whom they get their labels
directly, just as an automaker would have to contact
a supplier if they found that supplier’s part to be
defective. What they are not allowed to do is simply
do nothing.
B.
Matter of First Impression Involving
Federal Preemption. Petitioner’s claims against the
generic manufacturers do not rely on their ability to
update the labels as in Mensing. Nor are they design
defect claims as in Bartlett, Lashley, and Eckhardt
that rely on there being a “safer alternative design.”
Plaintiffs claims against the generic manufacturers
are, therefore, not preempted by Mensing ox Bartlett.
Federal preemption analysis of Petitioner’s strict
liability marketing defect, negligent manufacture,
negligent failure to warn, fraudulent and/or
negligent
misrepresentation,
deceptive
trade
practices, common law negligence, and breach of
warranty claims are matter of first impression for
24

this court and it is most appropriate for this Court to
perform this analysis. Just as this Court was
compelled to hear Bartlett because of its differences
from Mensing, the Court should be compelled to hear
the instant case which differs from both Mensing and
Bartlett.
TV. Relevant Information Rebuttal to the Texas
Presumption of No Liability.
A. Supervisory Powers of the Court. The
Fifth Circuit has again engaged in improper judicial
proceedings and this Court should exercise its
supervisory powers. Although the Fifth Circuit said
it did not reach the issues surrounding the Texas
presumption of no liability statute in this case, it is
the Fifth Circuit’s ruling in Lofton v. McNeil
Consumer & Specialty Pharmaceuticals, 672 F.3d
372 (2012) that the District Court uses to discount
Petitioner’s § 82.007(b)(1) relevant information
rebuttal. In Lofton, the Fifth Circuit strains in order
to turn a provision that says nothing about fraud into
some “fraud on the FDA” provision that it can
preempt, thus voiding a protection the legislature
provided for the consumer. Lofton first rearranges
the wording of the statute to establish that FDA
requirements are involved. Then, twice for invalid
reasons it chooses between different precedents just
to support its end goal.
Tex. Civ. Prac. Rem. Code § 82.007(a) provides
a drug manufacturer a presumption of no liability
when their drug is accompanied by an FDA approved
label. Tex. Civ. Prac. Rem. Code § 82.007(b) provides
Plaintiff five enumerated ways to rebut this
presumption.
Plaintiff has pled the relevant
25

information rebuttal of § 82.007(b)(1) under which a
Defendant can be held liable if:
“the defendant, before or after pre-market
approval or licensing of the product, withheld
from or misrepresented to the United States
Food and Drug Administration required
information that was material and relevant to
the performance of the product and was
causally related to the claimant’s injury.”
The Lofton Court reorders the words to create
the word chain “information required by the FDA.”
The Lofton Court (at 376) restates § 82.007(b)(1) as:
Under § 82.007(b)(1), the relevant exception
here, the presumption against liability can be
rebutted if the plaintiff can “establish” that the
drug manufacturer “withheld” from the agency
or “misrepresented” “material” information
“required” by the FDA.
The actual statute, as indicated above, makes no
mention of “information required by the FDA” or
“FDA requirements.” In fact, the Texas Litigation
Guide, a resource often cited by the courts, restates
§ 82.007(b)(1) by saying:
“That the defendant misrepresented or
withheld relevant information from the FDA
that relates to the performance of the product
and was causally related to the claimant’s
injury.”

26

This says nothing about FDA requirements. FDA
requirements do not have to be evaluated and there
is no infringement on FDA duties,
Drug
manufacturers have their own discretion as to what
is submitted as relevant information, and the fact
finder would only be reviewing that discretion.
Having manufactured a “fraud on the FDA”
provision, the Lofton Court now says that the FDA
must have found fraud in order for a plaintiff to use
the § 82.007(b)(1) rebuttal. Adding that the FDA
must have found fraud is adding a requirement that
the legislature never intended, substantially alters
the law, and amounts to judicial construction. As
written the law would encompass scenarios involving
negligence, and Plaintiffs claims in the instant case
are full of negligent behavior. Not all misconduct
will rise to the level of fraud, and the legislature
surely understood that by not requiring fraud to be
proven by the FDA before a lawsuit can be filed.
Plus, this fraud requirement would put a significant
undue burden on plaintiffs to try to have the FDA
open an investigation, go through its investigation
process, and then rule on its findings all prior to
filing suit before the statute of limitations runs out.
Having falsely established § 82.007(b)(1) as a
“fraud on the FDA” provision, Lofton analyzes
Buckman Co. v. Plaintiffs' Legal Comm., 531 U.S.
341, 121 S.Ct. 1012, 148 L.Ed.2d 854 (2001) and
Wyeth v. Levine, 555 U.S. 555, 129 S.Ct. 1187, 173
L.Ed.2d 51 (2009) and chooses Buckman because the
sole claim in Buckman was that the Defendant
committed fraud against the FDA. “Fraud on the
FDA” is not basis for any of Plaintiffs claims in the
instant case, making Buckman, and thus Lofton
which relies on Buckman, not relevant for the
27

instant case. Further, fraud requires intention to
deceive, and that is not so stated in the provision.
Without the intention to deceive, the provision
is more in line with common law duties that parallel
federal duties. Also, the instant case has common
law state tort elements that are not based on
committing “fraud on the FDA.” With common law
elements in the instant case, Lofton (at 377) itself
indicates Levine would be the more appropriate
chose. The Lofton Court erred in ruling that §
82.007(b)(1) is a “fraud on the FDA” provision.
Next the Lofton Court equates § 82.007(b)(1)
with a Michigan statute so that it can look at two
diverging opinions relating to preemption of that
statute under Buckman. The two are not equal as,
Mich. Comp. Laws § 600.2946(5)(a) (App. 25a)
requires intention, actually lists FDCA provisions,
and requires that approval of the drug would have
had to have been withdrawn or never given. Despite
these substantial differences, Lofton reviews the two
decisions concerning the Michigan law: Garcia v.
Wyeth-AyerstLabs., 385 F.3d 961 (6th Cir.2004) and
Desiano v. Warner-Lambert & Co., 467 F.3d 85 (2d
Cir.2006), affd by an equally divided court sub nom.
Warner-Lambert Co., LLC v. Kent, 552 U.S. 440,
128 S.Ct. 1168, 170 L.Ed.2d 51 (2008).
The Sixth Circuit held in Garcia that the
Michigan statute is preempted in some applications.
The Second Circuit, however, held in Desiano that
the same Michigan statute was not preempted.
While Lofton focused again on its fraud argument
and chose preemption in Garcia. If one was to take a
moment to give consideration to the legislative intent
of Tex. Civ. Prac. Rem. Code § 82.007 one would
clearly see that the provision of § 82.007(b)(1) is more
28

in line with Desiano (from Lofton at 378) reasoning
that the statute was merely a prerequisite to allow
victims to recover under state product liability laws
and not an attempt to police fraud on the FDA.
Desiano also found that the underlying claims were
traditional product liability claims, and pairing these
claims with the provision distinguished the case from
Buckman. Desiano should prevail here.
For it is the duty of the courts to construe a
law as written and, if possible, ascertain its intention
from the language used and not look for extraneous
reasons to be used as a basis for reading into law an
intention not expressed or intended to be expressed
therein. MCI Sales & Serv., Inc. v. Hinton, 329
S.W.3d 475, 500-01 (Tex. 2010). The Lofton Court
failed here.
B.
Question of Federal Preemption with
Differing Opinions'- Having decided both Buckman
and Levine, this Court should make the
determination as to which is more appropriate to the
relevant information rebuttal to the Texas
presumption of no liability, Tex. Civ. Prac. Rem.
Code § 82.007(b)(1).
If this Court determines
Buckman, this Court is needed to decide whether the
Second Circuit or the Sixth Circuit interpretation of
Buckman is more appropriate for the Texas statute,
keeping in mind the significant differences between
the Texas statute and the Michigan statute the
Second and Sixth Circuits reviewed.
C. § 82.007 is Either Fully Preempted or
Unconstitutional • If this Court agrees with Lofton
and determines that § 82.007(b)(1) is preempted in
any way, that would mean that § 82.007(a) would be
29

preempted as well since it is not severable from §
82.007(b)(1) without changing the intent of the
legislation. Preempting § 82.007(b)(1) in any way
would give blanket immunity even in cases where
they were clearly negligent. One surely would not
believe that this was the intent of the legislature.
It is worth noting here that Petitioner
demonstrated to the Fifth Circuit that, based on the
legislative history, the presumption of no liability in
§ 82.007(a) would not exist if it were not for the
rebuttal provided by § 82.007(b)(1). The House tried
to include the presumption without any rebuttals,
and it is only by adding § 82.007(b)(1) that the
measure was able to pass the House and move to the
Senate. According to Tex. Gov't Code § 311.023,
legislative history is one of the considerations to be
used when construing a statute. § 82.007(a) is thus
dependent on § 82.007(b)(1) and must be preempted
if § 82.007(b)(1) is preempted.
Alternatively, preemption of § 82.007(b)(1)
renders § 82.007 as a whole is unconstitutional.
Preemption of § 82.007(b)(1) in any form inhibits
Plaintiffs, and any Texas consumer’s, access to the
courts to seek redress, in violation of Amendment I of
the Constitution of the United States of America.
Additionally, Tex. Const. Art. I, §13 from the
Bill of Rights of the Texas Constitution would be
violated as well. Tex. Const. Art. I, §13 reads in part:
“All courts shall be open, and every person for an
injury done him, in his lands, goods, person or
reputation, shall have remedy by due course of law.”
Following this is a constitutional right that
meaningful remedies must be afforded, “so that the
legislature may not abrogate the right to assert a
well-established common law cause of action unless
30

the reason for action outweighs the litigants’
constitutional right of redress.” Texas Workers’
Compensation Com’n. v. Garcia, 893 S.W.2d 504, 520
(Tex. 1995); quoting Trinity River Authority v. URS
Consultants, Inc., 889 S.W.2d 259, 261 (Tex. 1994).
Therefore, Lofton’s interpretation of § 82.007 renders
the entire provision unconstitutional, as it abrogates
to right seek redress far in excess of what the
legislature intended.
V. Unapproved Indication Rebuttal to the Texas
Presumption of No Liability.
A. Supervisory Powers of the Court. While,
again, the Fifth Circuit did not reach this issue, the
District Court has again engaged in improper
judicial proceedings and this Court should exercise
its supervisory powers. The Order from the District
Court says (App. 20a*21a):
Plaintiff fails to allege any facts related to
Minocycline’s “off-label” marketing. See docket
nos. 1 & 39. Nor does he allege any facts
related to Defendants Sun Pharmaceuticals or
Taro’s marketing of Carbamazepine for off-label
uses, or, that his use of the drug was off-label.
This is a clear and obvious misstatement and either
shows a lack of familiarity with the pleadings or
some malfeasance. Plaintiff has clearly pled the
rebuttal of § 82.007(b)(3) under which a Defendant
can be held liable iT
(A) the defendant recommended, promoted, or
advertised the pharmaceutical product for an
31

indication not approved by the United States
Food and Drug Administration; (B) the product
was used as recommended, promoted, or
advertised; and (C) the Plaintiffs injury was
causally related to the recommended, promoted,
or advertised use of the product.”
Plaintiff first pled his §82.007(b)(3) rebuttal
for Minocycline on page 10 of Plaintiffs Combined
Rebuttal to Defendants’ Replies in Support of Their
Motions to Dismiss (Dkt. 44) (ROA.354). Based on
evolving information Plaintiff was learning from
access to his medical records, Plaintiff amended his
pleading of his §82.007(b)(3) rebuttal for Minocycline
on attachment page 7 of his First Amended
Complaint for a Civil Case (Dkt. 47). Plaintiff
alleges that:
“the Minocycline label states it is indicated for
use against various listed infections. Plaintiff
was prescribed Minocycline for acne keloidalis,
hidradenitis, folliculitis, and cellulitis and
abscess of trunk.” (ROA.388)
Plaintiff was injured because he was prescribed
Minocycline for these acne related conditions.
Among the facts Plaintiff alleges supporting the
§82.007(b)(3) rebuttal for Minocycline is:
The label itself provides evidence of over­
promotion when it says, “In severe acne,
minocycline may be useful adjunctive therapy.”
The label clearly does not say that severe acne
is an approved indication for Minocycline, but
by saying “may be useful,” the label is
32

promoting it for the use of an unapproved
indication for which it was prescribed for the
Plaintiff. (ROA.389)
This statement is made in the label and the label is
considered marketing.
Thus, this is considered
direct marketing to Plaintiffs doctor.
Plaintiff first pled his §82.007(b)(3) rebuttal
for Carbamazepine starting on page 11 of Plaintiffs
Combined Response to Defendants’ Motions to
Dismiss (Dkt. 39) (ROA.291). Plaintiff amended his
pleading
of his
§82.007(b)(3)
rebuttal
for
Carbamazepine on attachment page 9 of his First
Amended Complaint for a Civil Case (Dkt. 47).
Plaintiff alleges that:
the Carbamazepine label states it is “indicated
for use as an anticonvulsant drug” and it is
“indicated in the treatment of the pain
associated with true trigeminal neuralgia.”
Plaintiff was prescribed Carbamazepine for
small fiber neuropathy. (ROA.390)
Plaintiff was injured because he was prescribed
Carbamazepine for his small fiber neuropathy.
Among the facts Plaintiff alleges supporting the
§82.007(b)(3) rebuttal for Carbamazepne is:
The label itself provides evidence of over­
promotion when it says, “Beneficial results have
also been reported in glossopharyngeal
neuralgia.”
The label does not say that
Carbamazepine is indicated for use in the
treatment of glossopharyngeal neuralgia, but
this statement could lead doctors to believe that
33

Carbamazepine would be “beneficial” to other
form on neuralgia (neuropathy) if it has been
“reported” to be. The label further goes on to
say “Medicines are sometimes prescribed for
purposes other than those listed in the
Medication Guide. Do not use Carbamazepine
for a condition for which it was not prescribed.”
With these statements the Carbamazepine
(Tegretol) manufacturers clearly seek to benefit
from the prescribing of their medication for nonapproved indications, including the Plaintiffs
small fiber neuropathy. (ROA.390)
Again, these statements are made in the label and
the label is considered marketing. Thus, they are
considered direct marketing to Plaintiffs doctor.
Additionally, Plaintiff has pointed out in both
his Response (Dkt. 39) and his Amended Complaint
(Dkt. 47) that the Tegretol and Carbemazepine
manufacturers have over-promoted the use of the
drug to the Court:
Novartis says of Tegretol that “it has been a
widely prescribed medication used to prevent
and control epileptic seizures, in addition to the
treatment of certain types of chronic pain.”
Novartis says “types” which is plural and
simply “chronic pain” as opposed to the one
single type of neuralgia it is indicated for. Sun
Defendants say, “Carbamazepine is an
anticonvulsant also indicated to the treatment
of neuralgia.” This is nonspecific and could
include any type of neuralgia (neuropathy).
Torrent
says,
“Carbamazepine
is
an
anticonvulsant that is used to treat seizures
34

and nerve pain.” This too is nonspecific and
could include any type of nerve pain
(neuropathy). (ROA.390)
If Defendants over-promote the drug to the Court,
one would expect that they would over-promote the
drug to doctors as well.
From the above it is clear that Plaintiff has
provided facts related to Defendants’ marketing of
both drugs for indications not approved by the FDA.
Plaintiffs §82.007(b)(3) rebuttal should be allowed by
this Court.
VI. Leave to Amend.
A. Supervisory Powers of the Court. While
the Fifth Circuit did not mention this issue, the
District Court has again engaged in improper
judicial proceedings and this Court should exercise
its supervisory powers,
The amendment was
submitted in accordance with instruction provide by
the District Court on their own website and is in line
with prevailing precedents.
Plaintiff s First Amended Complaint for a Civil
Case more appropriately stated his claims, made
clarifications, appropriately added causes of action
based on previously presented facts, and put all
claims in one place which should have been
beneficial to the Court and all litigants.
Federal Rule of Civil Procedure 15(a)(2) states
in part, “The court should freely give leave when
justice so requires.” Generally, the rule “evinces a
bias in favor of leave to amend,” Rosenzweig v.
Azurix Corp., 332 F.3d 854,863 (5th Cir. 2003), and
absent a significant reason, “such as undue delay,
35

bad faith, dilatory motive, or undue prejudice to the
opposing party, ‘the discretion of the district court is
not broad enough to permit denial.’” Martin’s Herend
Imports, Inc. v. Diamond & Gem Trading United
States of Am. Co., 195 F.3d 765, 770 (5th Cir. 1999)
(quoting Dussouy v. Gulf Coast Inv. Corp., 660 F.2d
594, 598 (5th Cir. 1981)). Further, “the Court often
looks warily at efforts to preempt an analysis of a
new cause of action in the context of a dispositive
motion by denying leave in the Rule 15(a) context on
the basis of futility.” Barbour v. City ofForney
The District Courts decision to deny Plaintiff
leave to amend violates the entire preceding
paragraph. The new DTPA claim should have gotten
full analysis. Considering the Court’s misstatements
around Plaintiffs § 82.007(b)(3) rebuttal, admitting
the amendment may have led to the acceptance of
the rebuttal.
Plus the Court didn’t consider its own role in
the timing of the amendment. Plaintiff believed he
could file an amended complaint at any time before
Defendants answered the complaint based on
answers to Frequently Asked Questions on the
website for the United States District Court Western District of Texas. On the website, the
answer to the question “Can I amend my complaint
without a motion?” is^
No. You must file an original and one copy of
the motion for leave to amend complaint with a
copy of the proposed amended complaint with
the U.S. District Clerk’s Office in any case
where the defendant has filed an answer. If no
answer has been filed then you can file your

36

amended complaint without obtaining leave of
the court.
While Defendants may have filed responsive
pleadings, they have not answered the Complaint.
Based on the information on the Court’s website
Plaintiff
believed he could freely amend his
Complaint until it was actually answered.
Additionally,
the
Court
should
have
considered that with the Rules allowing for free
amendment for a period of time after a motion to
dismiss is filed, any amount of rework is already
anticipated by the Rules. The timing in which
Plaintiff had filed his Motion for Leave to Amend had
not madethat any worse. Plus, in their Responses to
Plaintiffs
Motion for Leave to Amend, each
Defendant had in some form expressed that the
Amended Complaint would not change their Motions
to Dismiss. By their own admission, granting leave
to amend does not prejudice the Defendants.
Plaintiffs motion for leave to amend should
have been granted by the Court.
CONCLUSION
Petitioner respectfully requests
Court grants certiorari.

that

this

Respectfully submitted,
/s/Ramon D. Johnson. II
Ramon D. Johnson, II - Pro Se
9502 Vallecito Pass
San Antonio, TX 78250
(734) 320-8834
rdougjohnsonii@gmail.com
37

